BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply in Support of Suggestion of Mootness
in 19-1280, The Idaho Department of Correction, et al.
v. Adree Edmo, was sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service and e-mail to the following parties listed
below, this 11th day of September, 2020:
Lori Rifkin
Rifkin Law Office
2855 Telegraph Avenue
Suite 517
Berkeley, CA 94705
(510) 414-4132
lrifkin@rifkinlawoffice.com

Counsel for Respondent
Lawrence G. Wasden
Attorney General State of Idaho
Brian Kane
Assistant Chief Deputy
Megan A. Larrondo
Deputy Attorney General
Brady J. Hall
Special Deputy Attorney General
Counsel of Record
MOORE ELIA KRAFT & HALL, LLP
P.O. Box 6756
Boise, Idaho 83707
(208) 336-6900
brady@melawfirm.net

Counsel for Petitioners The Idaho Department of
Correction and Henry Atencio, Jeff Zmuda, and Al
Ramirez, in their official capacities

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
' 1300 I Street, NW, Suite 400E
Washington , DC 20005

Dylan A. Eaton
J. Kevin West
Bryce Jensen
Parsons Behle & Latimer
800 West Main Street
Suite 1300
Boise, Idaho 83702

Counsel for Petitioner
Scott Eliason, M.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 11, 2020.

Donna J. Wol f
Q:)
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN 0. GAUAGHEA
Notary Pubic, te of Ollio
My Commission Expires
February 14, 2023

